No. 19-847
IN THE

Supreme Court of the United States
JONATHAN REISMAN,
Petitioner,
v.

ASSOCIATED FACULTIES OF THE UNIVERSITY
OF MAINE, ET AL.,

Respondents.
ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
BRIEF OF AMICUS CURIAE THE
COMPETITIVE ENTERPRISE INSTITUTE IN SUPPORT OF PETITIONER

Certificate of Word Count
Pursuant to Rule 33.1(h), I hereby certify that this brief contains 2,969 words as
counted by Microsoft Word, excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d), and therefore complies with the word count limits set out in Rule 33. This
brief was prepared in 12-point Century Schoolbook font, with footnotes in 10-point font.
Executed on Feb 4, 2020.

_Sam Kazman____________________
Sam Kazman
COMPETITIVE ENTERPRISE INSTITUTE
1310 L St. NW, 7th Floor
Washington, D.C. 20005
(202) 331-1010

